                Injured Spouse Guidance Is Not Consistent

                                   October 2004

                       Reference Number: 2005-40-001




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        October 7, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                            Gordon C. Milbourn III
                                       Acting Deputy Inspector General for Audit

      SUBJECT:                        Final Audit Report - Injured Spouse Guidance Is Not Consistent
                                      (Audit # 200440021)

      This report presents the results of our review of injured spouse claim processing. The
      overall objective of this review was to assess the Internal Revenue Service’s (IRS)
      efforts to minimize taxpayer burden relating to injured spouse claim processing.
      Internal Revenue Code Section 64021 requires the IRS to apply a taxpayer’s tax refund
      (overpayment) to any past-due Federal tax, child or spousal support, Federal agency
      nontax debt (such as a student loan), or state income tax obligation before crediting the
      overpayment to a future tax period or making a refund. This application of a tax
      overpayment is called a refund offset. If a taxpayer files a joint tax return resulting in a
      refund, that refund may be used to pay the past-due amount of either spouse’s debt.
      However, the IRS can refund all or a portion of the overpayment if the taxpayer qualifies
      as an injured spouse. An injured spouse is a taxpayer who files a joint tax return and all
      or part of his or her share of the tax refund was, or is expected to be, applied against
      the other spouse’s past-due debt.2
      The IRS recognizes that tax refund offsets can create problems for taxpayers and
      increase taxpayer burden. To assist taxpayers, the IRS developed a claim form, Injured
      Spouse Claim and Allocation (Form 8379), to help them understand the claim process
      and assist them in filing injured spouse claims. A taxpayer qualifies as an injured
      spouse if he or she (1) is not required to pay the past-due amount; (2) has reported
      income on a joint tax return; and (3) has made and reports payments such as Federal
      income tax withheld from wages or estimated tax payments, or has claimed the Earned




      1
          Internal Revenue Code Section 6402 (2002).
      2
          Both spouses can have their refunds applied to past-due debts.
                                                         2

Income Tax Credit or other refundable credits, on the joint tax return.3 If a taxpayer
believes he or she qualifies as an injured spouse, he or she can prepare and submit
Form 8379 to the IRS to claim his or her share of the refund. As of the end of
Calendar Year 2003, the IRS had received 251,192 injured spouse claims4 relating to
Tax Year 2002.
The IRS does not provide taxpayers with consistent information necessary to ensure
they can easily and correctly comply with injured spouse provisions. Specifically, the
guidance we reviewed was not always complete or accurate. For example, Form 8379
does not advise taxpayers that injured spouse claims can be filed for prior years or that
there is a 6-year statute of limitations on filing these claims for a nontax debt and a
3-year statute of limitations on a tax debt. Guidance documents state different time
periods by which the IRS processes injured spouse claims. In addition, the forms and
publications available at the Taxpayer Assistance Centers5 are not always current, and
the IRS does not provide Injured Spouse Claims (Publication 4183) to the taxpaying
public.
Each year, approximately 50 million taxpayers file joint tax returns and may need to
reference injured spouse guidance should the situation arise. To ensure taxpayers can
easily and correctly comply with injured spouse provisions, we recommended the
Commissioner, Wage and Investment Division, make Publication 4183 available to all of
the taxpaying public; review both it and the instructions for Form 8379 to ensure the
guidance provided is current, complete, and accurate; and identify all IRS documents
containing injured spouse information and revise them to refer taxpayers to either
Publication 4183 or the instructions for Form 8379.
Management’s Response: IRS management agreed with our conclusion that the IRS
could improve consistency of injured spouse information and that limiting the key
information to one or two documents as reference points will aid the IRS in delivering
information that is consistent, current, and comprehensive. IRS management also
agreed with two of our three recommendations, and plans to update and revise all
documents that contain injured spouse information to refer taxpayers to the instructions
for Form 8379. However, the IRS did not agree with our recommendation to make
Publication 4183 available to all taxpayers. Instead, the IRS intends to enhance and


3
  If a taxpayer lives in a community property state, the taxpayer has to meet only the first condition. Community
property states include Arizona, California, Idaho, Louisiana, Nevada, New Mexico, Texas, Washington, and
Wisconsin.
4
  This includes only those claims received within Calendar Year 2003.
5
  An IRS office where employees answer questions, provide assistance, and resolve account-related issues
face-to-face.
                                           3

expand the information in the instructions of Form 8379. We agree that this alternative
use of an enhanced Form 8379 will accomplish the intent of our recommendation.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                                 Injured Spouse Guidance Is Not Consistent




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Does Not Provide Taxpayers
With Consistent Information Necessary to Ensure They Can
Easily and Correctly Comply With Injured Spouse Provisions................... Page 3
         Recommendation 1: .........................................................................Page 8
         Recommendations 2 and 3: .............................................................Page 9

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ...................................................... Page 13
Appendix IV – Management’s Response to the Draft Report .................... Page 14
             Injured Spouse Guidance Is Not Consistent

                       Internal Revenue Code Section 64021 requires the Internal
Background
                       Revenue Service (IRS) to apply a taxpayer’s tax refund
                       (overpayment) to any past-due Federal tax, child or spousal
                       support, Federal agency nontax debt (such as a student
                       loan), or state income tax obligation before crediting the
                       overpayment to a future tax period or making a refund. This
                       application of a tax overpayment is called a refund offset.
                       If a taxpayer files a joint tax return resulting in a refund, the
                       refund may be used to pay the past-due amount of either
                       spouse’s debt. However, the IRS can refund all or a portion
                       of the overpayment if the taxpayer qualifies as an injured
                       spouse. An injured spouse is a taxpayer who files a joint tax
                       return and all or part of his or her share of the tax refund
                       was, or is expected to be, applied against the other spouse’s
                       past-due debt.2
                       A taxpayer qualifies as an injured spouse if he or she meets
                       all of the following criteria:
                       1. Is not required to pay the past-due amount.
                       2. Has reported income on a joint tax return.
                       3. Has made and reports payments such as Federal income
                          tax withheld from wages or estimated tax payments, or
                          has claimed the Earned Income Tax Credit or other
                          refundable credits, on the joint return.3
                       If a taxpayer believes he or she qualifies as an injured
                       spouse, he or she can prepare and submit an Injured Spouse
                       Claim and Allocation (Form 8379) to the IRS to claim his or
                       her share of the refund. Table 1 shows the injured spouse
                       claims the IRS received in Calendar Years (CY) 2000
                       through 2002.4




                       1
                         Internal Revenue Code Section 6402 (2002).
                       2
                         Both spouses can have their refunds applied to past-due debts.
                       3
                         If a taxpayer lives in a community property state, the taxpayer has to
                       meet only the first condition. Community property states include
                       Arizona, California, Idaho, Louisiana, Nevada, New Mexico, Texas,
                       Washington, and Wisconsin.
                       4
                         Claims may be filed 6 years from the date of the offset if for a nontax
                       debt and 3 years if for a Federal tax debt; therefore, receipts for
                       CY 2002 include claims received for prior tax years.
                                                                                         Page 1
Injured Spouse Guidance Is Not Consistent

                            Table 1: Injured Spouse Receipts

                                                  Number of Claims
                         Calendar Year               Received

                              2000                        367,261

                              2001                        379,370

                              2002                        373,434
                   Source: The IRS Program Analysis Report.5

          To make an injured spouse claim, the IRS instructs a
          taxpayer to attach a Form 8379 to his or her original tax
          return, either when submitting a paper tax return or when
          filing electronically (e-filing). If a claim was not filed with
          the original tax return, the IRS instructs a taxpayer to submit
          a Form 8379 by paper to one of seven IRS campuses,6 based
          on where the taxpayer filed the original return. This is
          referred to as a loose filing of Form 8379. Chart 1 provides
          a breakdown of how the 251,192 Tax Year (TY) 2002
          injured spouse claims were submitted to the IRS.

                   Chart 1: Tax Year 2002 Injured S pous e Claims


                                              28%
                             28%

                                             44%



                     P aper (111,654)   E-File (70,238)    Loose (69,300)

          Source: Treasury Inspector General for Tax Administration (TIGTA)
          analysis of IRS TY 2002 Master File data.7



          5
            These data were provided by the IRS and were not validated for
          accuracy and reliability.
          6
            Campuses that process injured spouse claims include those in
          Fresno, California; Atlanta, Georgia; Andover, Massachusetts;
          Kansas City, Missouri; Philadelphia, Pennsylvania;
          Memphis, Tennessee; and Austin, Texas.
          7
            The Master File is the IRS database that stores various types of
          taxpayer account information. This database includes individual,
          business, and employee plans and exempt organizations data.
                                                                            Page 2
                         Injured Spouse Guidance Is Not Consistent

                                   Once an injured spouse claim is received by the IRS, it is
                                   forwarded to the Accounts Management function, which is
                                   responsible for resolving injured spouse claims. If a claim
                                   is sent with the original tax return, the Accounts
                                   Management function must wait until the tax return is
                                   processed before work on the claim can begin. This is
                                   necessary because the information included on the tax return
                                   is needed to properly compute the amount to be refunded to
                                   the injured spouse. The resolution of these claims includes
                                   analyzing, researching, and making adjustments to taxpayer
                                   accounts and may also include contacting the taxpayer by
                                   telephone or correspondence.
                                   This review was performed at the Wage and Investment
                                   (W&I) Division Headquarters in Atlanta, Georgia; the
                                   IRS National Headquarters in New Carrollton, Maryland;
                                   and the campuses in Atlanta, Georgia, and
                                   Andover, Massachusetts, during the period
                                   December 2003 through June 2004. The audit was
                                   conducted in accordance with Government Auditing
                                   Standards. Detailed information on our audit objective,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   The IRS recognizes that tax refund offsets can create
The Internal Revenue Service
                                   problems for taxpayers and increase taxpayer burden. To
Does Not Provide Taxpayers With
                                   assist taxpayers, the IRS developed Form 8379 to help them
Consistent Information Necessary
                                   understand the claim process and assist them in filing
to Ensure They Can Easily and
                                   injured spouse claims. To continue to help minimize burden
Correctly Comply With Injured
                                   for taxpayers filing injured spouse claims, the IRS has
Spouse Provisions
                                   automated the process used to calculate the amount to be
                                   refunded to the injured spouse. The IRS indicated that
                                   automating this process will help decrease processing time
                                   while helping to ensure the amount to be refunded is
                                   accurate.
                                   However, the IRS does not provide taxpayers with
                                   consistent information necessary to ensure they can easily
                                   and correctly comply with injured spouse provisions.
                                   Guidance contained in the 16 documents8 reviewed was not
                                   always complete or accurate. For example:



                                   8
                                    These documents included forms, instructions, letters, notices, and
                                   publications.
                                                                                                   Page 3
Injured Spouse Guidance Is Not Consistent

          •   Form 8379 instructions do not inform taxpayers that
              claims can be filed for prior years or that there is a
              6-year statute of limitations on filing injured spouse
              claims for a nontax debt and a 3-year statute of
              limitations for a tax debt. Ensuring the instructions
              contain the key provisions is critical because 15 of the
              16 documents we reviewed refer taxpayers to
              Form 8379.
          •   Only Injured Spouse Claims (Publication 4183) informs
              taxpayers that Form 8379 can be e-filed, which can
              reduce the time necessary for the IRS to process claims.
          •   Publication 4183 dated May 2003, incorrectly informed
              taxpayers living in community property states that only
              one of the three injured spouse eligibility conditions
              must be met to qualify. This is incorrect because the
              only required condition for a taxpayer who lives in a
              community property state is that the individual is not
              required to pay the past-due amount. After alerting the
              Director, Accounts Management, of this issue, the IRS
              revised Publication 4183 in May 2004 to correctly
              inform taxpayers that only the first condition must be
              met to qualify as an injured spouse.
          •   The forms and publications available at the Taxpayer
              Assistance Centers (TAC)9 are not always current.
              Divorce, An IRS Perspective (Publication 1819), dated
              June 1994, was found at a TAC in Connecticut but is no
              longer published or available to the public. Also, the
              Form 8379 dated December 1999 was found in some
              TACs, but the current version is dated December 2002.
              Processing time periods are not consistent throughout
              guidance documents. Form 8379 instructions state the
              IRS will process the injured spouse claim before the
              offset occurs and the refund may be delayed by 6 to
              8 weeks. Similarly, Publication 4183 dated May 2003,
              states that processing may add 6 to 8 weeks if the claim
              is filed with the tax return. On the other hand, the
              United States Individual Income Tax Return
              (Form 1040) instructions state the processing time


          9
           IRS offices where employees answer questions, provide assistance,
          and resolve account-related issues face-to-face.
                                                                        Page 4
Injured Spouse Guidance Is Not Consistent

               period for the taxpayer’s refund will be 11 weeks when
               e-filed and 14 weeks when filed with a paper tax return.
               Likewise, the revised Publication 4183 dated May 2004,
               informs taxpayers that the time period for processing an
               injured spouse claim may be up to 11 weeks from the
               date the tax return is filed electronically and up to
               14 weeks from the date the paper tax return is filed.
               In addition, some of these key guidance documents
               understate the time period necessary to process injured
               spouse claims. Table 2 provides the average processing
               time periods based on an analysis of the
               181,892 claims10 filed with a TY 2002 tax return.
                 Table 2: Processing Time Periods for Injured Spouse
                       Claims Filed With TY 2002 Tax Returns

                      Method of            Number of        Total Weeks
                     Filing Claim           Claims          in Process11

                  E-filed                    70,238              10

                  Submitted on Paper         111,654             11

                  Total                      181,892             11
                 Source: TIGTA analysis of IRS TY 2002 Master File data.

          Several factors contributed to the inconsistencies
          The IRS was not aware of the number of documents that
          contained injured spouse guidance and has not reviewed
          them for consistency, completeness, and accuracy. In the
          Fiscal Year (FY) 2002 Annual Report to Congress, the
          National Taxpayer Advocate (NTA) raised concerns
          regarding the time period to process injured spouse claims
          and how it causes hardship on taxpayers. The report noted
          that taxpayers were contacting the Taxpayer Advocate
          Service when the time to process their claims exceeded
          8 weeks. Subsequent to our review, IRS management
          developed an action plan to address the NTA’s concerns,
          which includes addressing inconsistent time periods in the


          10
             Claims that were filed loose and shown in Chart 1 were not included
          in Table 2. This table includes only those injured spouse claims filed
          with original tax returns.
          11
             The number of weeks is calculated from the date of the IRS’ receipt of
          the injured spouse claim to the date the claim is resolved.
                                                                           Page 5
Injured Spouse Guidance Is Not Consistent

          injured spouse guidance documents such as Form 8379 and
          instructions for Form 1040.
          The IRS has not adopted a best practices approach similar
          to the one it has for the Innocent Spouse Program. To
          qualify as an innocent spouse, a taxpayer believes he or she
          is not liable for the spouse’s tax liability and must submit a
          Request for Innocent Spouse Relief (And Separation of
          Liability and Equitable Relief) (Form 8857) and explain
          why he or she is not liable for the tax liability. The tax
          liability may result from an examination of the taxpayer’s
          tax return or from an understatement of the taxpayer’s
          income that results in additional tax owed. To ensure a
          consistent message is being delivered, the IRS Innocent
          Spouse Program has developed two key documents,
          Innocent Spouse Relief (And Separation of Liability and
          Equitable Relief) (Publication 971) and Form 8857,
          including instructions. Although innocent spouse
          information is provided in a number of other IRS
          documents, the IRS has ensured these documents refer to
          Publication 971 and Form 8857. The NTA’s FY 2002
          Annual Report to Congress highlighted the Innocent Spouse
          Program as an “IRS success story.”
          The IRS already produces Publication 4183, which outlines
          the qualifications and requirements to claim injured spouse.
          However, this publication is only distributed to tax
          preparers attending IRS Nationwide Tax Forums12 and is not
          available to the taxpaying public or tax return preparers that
          do not attend the forums. Injured spouse guidance
          documents we reviewed did not contain all pertinent
          information on the qualifications and injured spouse
          provisions. Taxpayers are not referred to one source
          containing all the necessary information, as they are for
          innocent spouse claims.
          When inaccurate and incomplete information is provided to
          taxpayers, they may not be able to easily and correctly
          comply with injured spouse provisions. Each year
          approximately 50 million taxpayers file joint tax returns
          and, should the situation arise, they may need injured
          spouse guidance. Taxpayers that misunderstand the process


          12
            The IRS Nationwide Tax Forum is an outreach program to help
          educate and serve tax professionals.
                                                                      Page 6
Injured Spouse Guidance Is Not Consistent

          for filing an injured spouse claim, or the time period
          necessary for the IRS to work these claims, may make
          unnecessary contacts with the IRS.
          In addition, taxpayers should be educated on the option and
          advantages associated with e-filing their claims, including
          how e-filing reduces the time necessary for the IRS to
          process injured spouse claims. Chart 2 provides a
          comparison of injured spouse claims receipts versus
          closures for tax returns e-filed and submitted on paper.

                                  Chart 2: Tax Year 2002 Injured Spouse Claims Filed
                                          With Paper and E-Filed Tax Returns
                                                    E-File Received          E-File Processed
                                                    Paper Received           Paper Processed
                                 36000
              Number of Claims



                                 30000
                                 24000
                                 18000
                                 12000
                                  6000
                                     0
                                            b




                                                                                p
                                                                        ug
                                                                         l
                                                   ar




                                                               n




                                                                                      ec
                                                                                     ov
                                           n




                                                  ay




                                                                                      ct
                                                  pr




                                                                      Ju
                                         Fe




                                                                             Se
                                                              Ju
                                     Ja



                                                M




                                                                                    O
                                                A




                                                                       A




                                                                                    D
                                                M




                                                                                    N
          Source: TIGTA analysis of IRS TY 2002 Master File data.

          Currently, the Accounts Management function is notified of
          injured spouse claims associated with both e-filed and paper
          tax returns in the same way. However, the IRS is initiating
          a change in the way the Accounts Management function is
          notified of injured spouse claims associated with e-filed
          tax returns that will further reduce processing time for
          injured spouse claims by an estimated 1 week.
          The IRS will also realize savings in the amount of interest
          paid on tax refunds resulting from injured spouse claims.
          The law mandates that the IRS pay interest on a tax refund
          amount due if a claim is filed after the due date of the tax
          return. For example, for claims filed with the original tax
          return, the IRS will pay interest starting 45 days after the
          due date of April 15 or from when the tax return is filed, if
          subsequent to April 15. For loose claims (those submitted
          on paper and filed subsequent to the filing of the tax return),
          the IRS starts to pay interest after the tax return due date.
          Because e-filed claims are received and processed earlier,
          interest paid is substantially less than the interest paid
          relative to claims included with a paper filed tax return or a
                                                                                                Page 7
Injured Spouse Guidance Is Not Consistent

          claim filed loose. Chart 3 provides a breakdown of interest
          paid on TY 2002 injured spouse claims.

                   Chart 3: Interest Paid on Injured Spouse Claims
                                   Paper   E-File    Loose


             $700,000
             $600,000
                         666,987
             $500,000
             $400,000                                        518,818
             $300,000
             $200,000
             $100,000
                   $0                      111,683


          Source: TIGTA analysis of IRS TY 2002 Master File data.

          In addition, better educating taxpayers on the benefits of
          e-filing injured spouse claims with their original tax returns
          may ultimately result in a reduction of the volume of claims
          filed with paper tax returns and claims filed loose. It would
          also save the IRS on the interest it pays on these claims and
          allow taxpayers to obtain their refunds more quickly.
          Claims filed with paper tax returns accounted for 44 percent
          of the total TY 2002 claims we reviewed and 51 percent of
          the total TY 2002 interest paid. Loose filings of Form 8379
          represented 28 percent of the claims and 40 percent of the
          interest paid. Comparatively, e-filed claims represented
          28 percent of the claims filed, but only 9 percent of the
          interest paid.
          Recommendations
          The Commissioner, W&I Division, should:
          1. Make Publication 4183 available to all of the taxpaying
             public.
          Management’s Response: IRS management disagreed with
          this recommendation and believes it is not practical to
          modify Publication 4183 for public use as it is targeted to
          the tax practitioner community. Instead, the IRS believes it
          is more practical and cost-effective to enhance and expand
          the information in the instructions for Form 8379. Using
          Form 8379 as a comprehensive reference point will be
          convenient for taxpayers since pertinent information will be
          in a single document.
                                                                       Page 8
Injured Spouse Guidance Is Not Consistent

          Office of Audit Comment: While the IRS disagreed with
          our recommendation to make Publication 4183 available for
          public use, we agree that its alternative use of an enhanced
          Form 8379 will accomplish the intent of our
          recommendation.
          2. Review Publication 4183 and the instructions for
             Form 8379 to ensure guidance is current, complete, and
             accurate.
          Management’s Response: The IRS has completed the
          annual update of Publication 4183. Form 8379 will be
          updated and enhanced by November 15, 2005.
          3. Identify all IRS documents containing injured spouse
             information and revise them to refer taxpayers to either
             Publication 4183 or the instructions for Form 8379.
          Management’s Response: The IRS will enhance the
          instructions for Form 8379 to provide comprehensive
          information on injured spouses. Other tax forms and
          publications that contain injured spouse information will be
          revised to refer taxpayers to the instructions for Form 8379.




                                                                 Page 9
                              Injured Spouse Guidance Is Not Consistent

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Internal Revenue Service’s (IRS) efforts to
minimize taxpayer burden relating to injured spouse claim processing. To accomplish this
objective, we conducted the following tests:
I.      Determined whether the IRS effectively educates taxpayers on injured spouse claims.
        A. Interviewed IRS management and responsible analysts to determine the various
           initiatives and vehicles used to educate taxpayers.
        B. Reviewed Injured Spouse Claim and Allocation (Form 8379) and instructions.
        C. Identified and reviewed publications, forms, and letters to determine what other
           IRS information and guidance are provided to inform and educate the taxpayer.
        D. Determined information available to taxpayers at Taxpayer Assistance Centers1 in
           Connecticut and Texas. These offices were visited while conducting testing for
           another Treasury Inspector General for Tax Administration review.
        E. Identified improvements that, if any, could be made to better inform and educate the
           taxpayer on injured spouse claims.
II.     Determined whether injured spouse claims are processed timely and efficiently to help
        minimize taxpayer burden.
        A. Met with IRS Headquarters management and responsible analysts to discuss injured
           spouse claim processing.
        B. Met with personnel in the Taxpayer Advocate Service to obtain information regarding
           the National Taxpayer Advocate’s concern about long delays in processing injured
           spouse claims.
        C. Obtained an extract from the Treasury Inspector General for Tax Administration Data
           Center Warehouse of Tax Year 20022 accounts and identified injured spouse claims
           filed with original tax returns and injured spouse claims filed alone (loose). From this
           extract we:



1
  IRS offices where employees answer questions, provide assistance, and resolve account-related issues
face-to-face.
2
  This includes only Tax Year 2002 injured spouse claims received in Calendar Year 2003.




                                                                                                         Page 10
              Injured Spouse Guidance Is Not Consistent

1. Determined the number of claims filed with original tax returns
   (electronically-filed and submitted on paper) and claims filed loose.
2. Determined the number of days taken to process claims from receipt to closure.
3. Determined the amount of interest paid to taxpayers.




                                                                            Page 11
                        Injured Spouse Guidance Is Not Consistent

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Russell Martin, Audit Manager
Roberta Fuller, Lead Auditor
Lena Dietles, Senior Auditor
Kathy Henderson, Auditor
Joseph Butler, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Jeffrey Williams, Information Technology Specialist




                                                                                         Page 12
                       Injured Spouse Guidance Is Not Consistent

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:CL
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Resources Management, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Acting Director, Electronic Tax Administration OS:CIO:I:ET
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 13
  Injured Spouse Guidance Is Not Consistent

                                              Appendix IV


Management’s Response to the Draft Report




                                                   Page 14
Injured Spouse Guidance Is Not Consistent




                                            Page 15
Injured Spouse Guidance Is Not Consistent




                                            Page 16
Injured Spouse Guidance Is Not Consistent




                                            Page 17
